No.
3ht tfje Supreme Court of tfje ®ntteb States;

CHRISTOPHER HADSELL,
Petitioner,
—v—
BARRY BASKIN, et al.,
Respondent.
PROOF OF SERVICE

I, Candace Miranda, do swear or declare that on this date, July 27, 2020, as required
by Supreme Court Rule 29,1 have served the PETITION FOR CERTIORARI on each
party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within
3 calendar days.
The names and addresses of those served are as follows:
Jonathan Matthew Blute
Murphy Pearson Bradley Feeney
88 Kearny St., 10th Fir
San Francisco, CA 94108
Alison Paige Buchanan
60 South Market Street, Ste 1400
San Jose, CA 95113
Patrick L. Hurley
651 Pine St., 9th Fir
Martinez, CA 94553
Catherine I sham
P.O. Box 3248
Danville, CA 94526

Received
JUL 3 1 2020

Whitney Marie Johnson
Murphy Pearson Bradley & Feeney
88 Kearny St., 10th Fir
San Francisco, CA 94108
Sharon Margaret Nagle
Bold, Polisner, Maddow, Nelson & Judson
2125 Oak Grove Road
Walnut Creek, CA 94598
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 27, 2020.

Candace Miranda

